CERTIFICATE OF COMPLIANCE
No.
SARA DEES,
Petitioner,
v.
COUNTY OF SAN DIEGO,
Respondent.
As required by Supreme Court Rule 33.1(h), I
certify that the Petition for a Writ of Certiorari
contains 4,483 words, excluding the parts of the
Petition for Writ of Certiorari that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on January 13, 2021.
/s/ Donnie R. Cox
Donnie R. Cox
Counsel of Record for
Petitioner, Sara Dees

